Washington, D.C. 20530

March 31, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Jeremy Brown v. United States of America,
S.Ct. No. 20-7083
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on January 22, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on April 7, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 7, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7083
BROWN, JEREMY
USA

JEREMY BROWN
PRISONER NO. 33404-057
FCI MEMPHIS
PO BOX 34550
MEMPHIS, TN 38184

